                                      SOCIAL SECURITY
MEMORANDUM
Date:   September 4, 2003                                                Refer To:

To:     Peter D. Spencer
        Regional Commissioner
         San Francisco

From:   Assistant Inspector General
         for Audit

Subject: Administrative Costs Claimed by the Hawaii Disability Determination Services
        (A-09-03-13012)


        The attached final report presents the results of our audit. Our objectives were to
        evaluate the Hawaii Disability Determination Services’ internal controls over the
        accounting and reporting of administrative costs, determine whether costs claimed were
        allowable and properly allocated, reconcile funds drawn down with claimed costs, and
        assess the electronic data processing general controls environment.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me at (410) 965-9700.




                                            S
                                            Steven L. Schaeffer

        Attachment

        cc:
        Lillian B. Koller, Director, Hawaii Department of Human Services
        Cynthia Lefever, Administrator, Hawaii Disability Determination Branch
        Lenore R. Carlson, Associate Commissioner, Office of Disability Determinations
        Jeff Hild, Deputy Associate Commissioner, Office of Disability Determinations
        Candace Skurnik, Director, Management Analysis and Audit Program Support Staff
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


         ADMINISTRATIVE
      COSTS CLAIMED BY THE
        HAWAII DISABILITY
     DETERMINATION SERVICES

  September 2003   A-09-03-13012




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary
OBJECTIVE
The objectives of our audit of the Hawaii Disability Determination Services were to
(1) evaluate internal controls over the accounting and reporting of administrative costs,
(2) determine if costs claimed were allowable and properly allocated, (3) reconcile funds
drawn down with claimed costs, and (4) assess the electronic data processing general
controls environment.

BACKGROUND
Disability determinations under the Social Security Administration’s (SSA) Disability
Insurance and Supplemental Security Income programs are performed by disability
determination services (DDS) in each State in accordance with Federal regulations.
Each DDS is responsible for determining claimants’ disabilities and ensuring that
adequate evidence is available to support its determinations. To assist in making
proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources. SSA
reimburses the DDS for 100 percent of allowable expenditures.

RESULTS OF REVIEW
Our review of administrative costs disclosed that the Hawaii Department of Human
Services (HI-DHS) had overstated its disbursements by $417,002 for Fiscal Years
(FY) 1999 through 2002. This occurred because HI-DHS charged unallowable indirect
and personnel costs to SSA’s programs. We also found that HI-DHS had overstated its
unliquidated obligations by $218,069 for FYs 1999 through 2001. As a result, HI-DHS
overreported its total obligations to SSA by $635,071. In addition, HI-DHS needs to
improve its access controls over computer security.

RECOMMENDATIONS

We recommend that SSA instruct HI-DHS to refund $417,002 in unallowable costs.
We also recommend that SSA direct HI-DHS to improve its controls and procedures
over the reporting of administrative costs and systems access security.

AGENCY COMMENTS AND OIG RESPONSE
SSA generally agreed with our recommendations. See Appendices C and D for the full
text of comments from SSA and HI-DHS. We concur with SSA’s comments.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                                                              Table of Contents
                                                                                                                          Page

INTRODUCTION............................................................................................................. 1

RESULTS OF REVIEW .................................................................................................. 4

Indirect Costs .................................................................................................................. 4

Medical Costs.................................................................................................................. 5

Personnel Costs .............................................................................................................. 6

Unliquidated Obligations ................................................................................................. 6

Incorrect Fiscal Year Payments ...................................................................................... 7

Access Controls .............................................................................................................. 8

CONCLUSIONS AND RECOMMENDATIONS............................................................... 9

OTHER MATTERS ...................................................................................................... 11

APPENDICES

Appendix A – Hawaii Disability Determination Services Reported Versus Allowed Costs

Appendix B – Statewide and Departmental Indirect Costs

Appendix C – SSA Comments

Appendix D – HI-DHS Comments

Appendix E – OIG Contacts and Staff Acknowledgments




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                                                                 Acronyms
Act                      Social Security Act

CE                       Consultative Examination

CFR                      Code of Federal Regulations

CPA                      Certified Public Accountant

DDS                      Disability Determination Services

DI                       Disability Insurance

FAMIS                    Financial Accounting and Management Information System

Form SSA-4513            State Agency Report of Obligations for SSA Disability Programs

FY                       Fiscal Year

HI-DDS                   Hawaii Disability Determination Services

HI-DHS                   Hawaii Department of Human Services

MER                      Medical Evidence of Record

OD                       Office of Disability

OIG                      Office of the Inspector General

OMB                      Office of Management and Budget

POMS                     Program Operations Manual System

SSA                      Social Security Administration

SSI                      Supplemental Security Income

Treasury                 Department of the Treasury

USC                      United States Code




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                                                            Introduction
OBJECTIVE
The objectives of our audit of the Hawaii Disability Determination Services
(HI-DDS) were to (1) evaluate internal controls over the accounting and reporting
of administrative costs, (2) determine if costs claimed were allowable and properly
allocated, (3) reconcile funds drawn down with claimed costs, and (4) assess the
electronic data processing general controls environment.

BACKGROUND
The Disability Insurance (DI) program was established in 1954 under title II of the
Social Security Act (Act). The DI program provides benefits to wage earners and their
families in the event the wage earner becomes disabled. In 1972, Congress enacted
the Supplemental Security Income (SSI) program under title XVI of the Act. The SSI
program provides benefits to financially needy individuals who are aged, blind, or
disabled.

The Social Security Administration (SSA) is responsible for implementing policies
for the development of disability claims under the DI and SSI programs. Disability
determinations under both DI and SSI are performed by disability determination
services (DDS) in each State in accordance with Federal regulations.1 In carrying
out its obligation, each DDS is responsible for determining claimants’ disabilities and
ensuring that adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each DDS is authorized to purchase medical
examinations, x-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of
the Treasury’s (Treasury) Automated Standard Application for Payments system to pay
for program expenditures. Funds drawn down must comply with Federal regulations2
and intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s (OMB) Circular
A-87, Cost Principles for State, Local, and Indian Tribal Governments. At the end of
each quarter of the fiscal year (FY), each DDS submits a Form SSA-4513, State


1
    20 C.F.R. §§ 404.1601 et. seq. and 404.1001 (2003).
2
    31 C.F.R. § 205 (2003).
3
    Pub. L. No. 101-453, 31 U.S.C. § 6501 (2003).


Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                             1
Agency Report of Obligations for SSA Disability Programs, to account for program
disbursements and unliquidated obligations.

HI-DDS is a component within the Hawaii Department of Human Services (HI-DHS),
Vocational Rehabilitation and Services for the Blind Division. For FYs 1999 through
2001, HI-DDS had about 60 employees and an authorized budget of $13.45 million for
administrative costs. As of September 30, 2002, HI-DHS reported total disbursements
of $13.42 million and $31,875 in unobligated funds. The following chart provides an
overview of the organizational structure of HI-DHS.



        Organizational Chart for Department of Human Services

                                                               Director


                                                                                        Office of
                                                                                         Youth
                                                                                        Services




       Benefits,        Social    Med-Quest     Vocational           Administrative     Personnel     Fiscal     Information   Management
     Employment &      Services    Division   Rehabilitation &         Appeals           Office     Management     Systems      Services
    Support Services   Division               Services for the          Office                        Office        Office       Office
       Division                                Blind Division



                                    Oahu         Services              Disability
                                   Branch      for the Blind         Determination
                                                  Branch                Branch



                                                                Hawaii DDS Operations




SCOPE AND METHODOLOGY

We reviewed the administrative costs reported by HI-DHS on its Form SSA-4513
for FYs 1999 through 2001. However, one of our findings affected the costs claimed in
FY 2002. Therefore, we expanded the audit period to fully develop the finding. For the
items tested, we reviewed HI-DHS’ compliance with applicable laws and regulations
over the allowability of administrative costs and draw down of Federal funds.

To accomplish our objectives, we:

•   Reviewed OMB Circular A-87, Code of Federal Regulations, United States Code,
    SSA’s Program Operations Manual System (POMS), and HI-DHS’ Cost Allocation
    Plan;



Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                                                                              2
•   Reviewed HI-DHS’ policies and procedures related to personnel, medical, indirect,
    and nonpersonnel costs;

•   Interviewed employees from SSA, HI-DHS, HI-DDS, and Nishihama and Kishida,
    Certified Public Accountants (CPA);

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures;

•   Examined the administrative costs incurred and claimed by HI-DHS for personnel,
    medical, indirect, and nonpersonnel costs during FYs 1999 through 2001;

•   Selected a random sample of personnel, medical, and nonpersonnel costs; and

•   Reconciled the accounting records to the costs reported by HI-DHS on its Form
    SSA-4513 for FYs 1999 through 2001.

We performed audit work at HI-DHS, HI-DDS, and Nishihama and Kishida, CPAs
in Honolulu, Hawaii. We also performed audit work at the SSA regional office in
Richmond, California. Field work was conducted between September 2002 and
March 2003. The entity audited was the Office of Disability (OD) within the Office of
the Deputy Commissioner for Disability and Income Security Programs. We conducted
our audit in accordance with generally accepted government auditing standards.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                          3
                                                     Results of Review
Generally, HI-DHS had adequate controls over the $13.42 million in administrative costs
claimed for reimbursement during the 3-year audit period ended September 30, 2001.
In addition, HI-DDS exercised adequate controls within its general electronic data
processing environment to provide reasonable safeguards of data in the system.
However, our review disclosed that HI-DHS overstated its disbursements by
$417,002 for FYs 1999 through 2002. This occurred because HI-DHS charged
unallowable indirect, medical, and personnel costs to SSA’s programs. We also found
that HI-DHS had overstated its unliquidated obligations by $218,069 for FYs 1999
through 2001. As a result, HI-DHS overreported its total obligations to SSA by
$635,071. Furthermore, HI-DHS needs to improve its access controls over computer
security. The following chart summarizes the total obligations overreported by HI-DHS.



                                   Total Obligations Overreported by HI-DHS

                            $450
                            $400
                            $350
      Dollars (Thousands)




                            $300
                            $250
                            $200
                            $150
                            $100
                             $50
                              $0
                                      Indirect      Unliquidated     Personnel
                                       Costs        Obligations        Costs




INDIRECT COSTS
HI-DHS overstated its statewide and departmental indirect costs that were allocated to
SSA’s programs. We found that HI-DHS unnecessarily established encumbrances for
the payment of medical evidence of records (MER), which resulted in an inequitable
distribution of indirect costs to SSA. As a result, SSA reimbursed HI-DHS for
$406,258 of unallowable costs for FYs 1999 through 2002.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                           4
Federal cost standards require all programs that benefit from expenditures in an
indirect cost pool to receive an appropriate allocation of indirect costs.4 Each quarter,
HI-DHS allocates statewide indirect costs from the Hawaii Department of Accounting
and General Services and Hawaii Department of Budget and Finance. In addition,
HI-DHS allocates departmental indirect costs from its Fiscal Management Office,
Pre-Audit Unit. These costs are allocated based on the ratio of transactions for
each program divided by the transactions for all programs. There are two types of
transactions: encumbrances and expenditures. An encumbrance is established to
set aside funds for the future payment of goods or services while an expenditure is
recorded when the actual payment is disbursed.

HI-DDS orders MERs to support its disability determinations. After HI-DDS submits a
request for the claimant's records, the vendor sends the MER, along with the invoice, to
HI-DDS. At that time, HI-DDS generates a purchase order and submits it, along with
the invoice, to HI-DHS. Although HI-DHS receives the purchase order and invoice
concurrently, it establishes an encumbrance and expenditure before paying the vendor.
Since the invoice is paid when the purchase order is received, it is not necessary to
record an encumbrance. This practice results in two separate transactions for the
payment of MERs and is inconsistent with the Med-Quest (that is, Medicaid) program,
in which HI-DHS only records one transaction for the payment of MERs.

Because HI-DHS overstated the number of MER transactions for SSA’s programs, the
percentage of indirect costs allocated to the Agency was higher than appropriate. Using
data from the Financial Accounting and Management Information System (FAMIS), we
determined that HI-DHS misallocated $406,258 of statewide and departmental indirect
costs for FYs 1999 through 2002. Of this amount, $253,345 represented statewide
indirect costs and $152,913 represented departmental indirect costs that should have
been allocated to non-SSA programs (see Appendix B). During our audit, HI-DHS
agreed to discontinue its practice of establishing encumbrances for the payment of
MERs.

MEDICAL COSTS

This finding was deleted from the report after considering Agency comments to our draft
report.




4
    OMB Circular A-87, Attachment A, C.3.b.



Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                              5
PERSONNEL COSTS
HI-DDS overcharged personnel costs for medical consultants to SSA’s programs.
Because of clerical errors, HI-DDS overstated the number of hours worked by medical
consultants which, in turn, overstated the personnel costs charged to SSA’s programs.
As a result, SSA reimbursed HI-DHS for $10,744 of unallowable costs for July 1999
through March 2001.

SSA’s procedures require all State agencies to exercise reasonable care in the
expenditure of funds necessary to make disability determinations. These funds must
be effectively and economically used in carrying out the provisions of the disability
program.5

Medical consultants are independent contractors who provide support services to the
HI-DDS in the disability determination process. Before April 2001, medical consultants
prepared daily time logs manually and forwarded them to HI-DDS at the end of the
month. HI-DDS calculated the total hours worked for each medical consultant and
submitted a summary report for all medical consultants to HI-DHS for payment.

Based on our review of daily time logs, we found that HI-DDS miscalculated the
number of hours worked by medical consultants for July 1999 through March 2001.
This resulted in $10,744 for overstated personnel costs that were charged to SSA’s
programs. In April 2001, HI-DDS implemented an electronic time clock to replace the
daily time logs. Our review did not identify any errors in the total hours worked by
medical consultants from April to June 2001.

UNLIQUIDATED OBLIGATIONS
HI-DHS reported unliquidated obligations for medical costs above the supporting
expenditures. Unliquidated obligations are cost commitments for goods and services
that have not been paid. However, HI-DHS relied on inaccurate data to estimate
its unliquidated obligations for medical costs. As a result, HI-DHS overstated its
unliquidated obligations by $218,069 for FYs 1999 through 2001. Since HI-DHS
retained the unliquidated obligations until after the end of the FY, SSA was unable
to use these funds for other needs in administering its disability program.

SSA’s procedures state that valid unliquidated obligations should be supported by
documents and records describing the nature of obligations and supporting amounts
recorded. State agencies should review unliquidated obligations at least once each
month to cancel those no longer valid. In addition, State agencies are required to
provide narrative reports on the status of unliquidated obligations with the quarterly
Form SSA-4513.6 The following table summarizes the unliquidated obligations above
the supporting costs for FYs 1999 through 2001.

5
    POMS, section DI 39506.001.
6
    POMS, section DI 39506.203.


Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                           6
                 Unliquidated Obligations for Medical Costs
                             Unliquidated
                             Obligations at         Valid              Unsupported
           FY                 End of FY          Obligations            Obligations
          1999                $301,726            $222,535                $79,191
          2000                  237,378            164,062                 73,316
          2001                  158,920             93,358                 65,562
          Totals              $698,024            $479,955               $218,069



HI-DHS obtained data from FAMIS to estimate the unliquidated obligations for
medical costs. However, HI-DHS stated that it did not always deobligate funds for
cancelled medical appointments. Since funds are obligated when the appointments
are scheduled, they should be deobligated when the appointments are cancelled. As a
result, HI-DHS overstated its unliquidated obligations by $218,069 for FYs 1999 through
2001. HI-DHS subsequently deobligated these amounts by September 30, 2002.

INCORRECT FISCAL YEAR PAYMENTS
HI-DDS charged payments to the incorrect FYs, although the costs were otherwise
acceptable for reimbursement by SSA. This occurred because HI-DDS did not
ensure that its obligations were always established in a timely and accurate manner.
As a result, HI-DHS incorrectly reported $9,944 in administrative costs for FYs 1999
through 2001.

Federal laws state that the balance of an appropriation or fund limited for obligation to a
definite period is available only for expenditures properly incurred during the period of
availability.7 The appropriation or fund is not available for expenditures beyond the
period otherwise authorized by law.8

HI-DDS generates purchase orders to establish valid obligations for goods and services
ordered. For medical and nonpersonnel costs, we reviewed a random sample of
298 invoices during FYs 1999 through 2001. Of this amount, we found that HI-DDS had
charged 22 invoices (7.4 percent) to the incorrect FY, resulting in $9,944 of misreported
costs.

In some instances, HI-DDS ordered goods and services in one FY but did not
generate the purchase order until the invoice was received in the following FY. In
7
    31 U.S.C. § 1502(a) (2003).
8
    See id.



Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                            7
other instances, HI-DDS generated the purchase order in one FY even though the
goods and services were not actually ordered until the following FY. Improper reporting
of funds between FYs prevents SSA from accurately monitoring the status of HI-DDS’
expenditures and unexpended appropriations.

ACCESS CONTROLS
HI-DDS did not implement an automatic lock to secure all employee workstations after
a period of nonuse. Our review disclosed that HI-DDS employees may deactivate or
remove the automatic lock from their workstations and adjust the length of time before
it is activated. As a result, HI-DDS needs to strengthen its systems controls to protect
against the unauthorized disclosure, manipulation, or destruction of sensitive data.

SSA’s procedures require the DDS to install an automatic lock on all Intelligent
Workstation/Local Area Network workstations.9 Specifically, the DDS should use a
standardized screensaver to automatically lock the workstation when not in use for
20 minutes. Employees must enter a personal identification number or password to
reactivate their access to the workstation. In addition, all employees are required to
lock or log off their workstations before leaving them unattended.10

During our audit, we observed that a number of HI-DDS workstations did not contain
an automatic lock. This undermines the security of the system and compromises
the integrity of sensitive data. In addition, we observed that a number of HI-DDS
employees did not lock or log off their workstations before leaving their desks. Since
employee workstations were unsecured and unattended, there is an increased risk
that data or programs may be altered, deleted, or replaced.

We believe that HI-DDS should improve its procedures to preclude unauthorized
access to idle workstations, thereby reducing the potential for fraud, waste, and abuse.
In August 2002, the SSA regional office issued a memorandum to require HI-DDS to
implement SSA’s systems policy, including an automatic lock and uniform configuration
settings for each workstation.




9
  SSA, Systems Security Bulletin, October 13, 1999, and Systems Security Handbook, chapter 10,
section B.
10
     See id.


Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                                   8
                                           Conclusions and
                                          Recommendations
Our review of administrative costs disclosed that HI-DHS had overstated its
disbursements by $417,002 for FYs 1999 through 2002. This occurred because
HI-DHS charged unallowable indirect, medical, and personnel costs to SSA’s
programs. We also found that HI-DHS had overstated its unliquidated obligations
by $218,069 for FYs 1999 through 2001. As a result, HI-DHS overreported its total
obligations to SSA by $635,071. In addition, HI-DHS needs to improve its access
controls over computer security.

We recommend that SSA:

1.   Instruct HI-DHS to refund $406,258 in unallowable statewide and departmental
     indirect costs for FYs 1999 through 2002.

2.   Ensure HI-DHS discontinues its practice of establishing encumbrances for the
     payment of MERs.

3.   Work with OD to obtain prior approval for the payment of fees for missed CE
     appointments. BASED UPON AGENCY COMMENTS, THIS
     RECOMMENDATION IS BEING WITHDRAWN.

4.   Instruct HI-DHS to refund $10,744 in unallowable personnel costs for medical
     consultants for July 1999 through March 2001.

5.   Ensure HI-DHS improves the methods used to record unliquidated obligations for
     medical costs so that future estimates more accurately reflect the amounts needed
     for valid expenditures.

6.   Determine whether expenditures claimed on the Form SSA-4513 for FYs 1999
     through 2001 were claimed in the proper FY and reclassify expenditures as
     appropriate.

7.   Ensure HI-DDS develops controls to require employees to establish obligations
     and report expenditures in the correct FY.

8.   Ensure HI-DDS establishes procedures to require employees to lock or log off their
     workstations before leaving them unattended.

9.   Verify whether HI-DDS implemented an automatic lock to safeguard all employee
     workstations.



Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                        9
AGENCY COMMENTS
SSA agreed with our recommendations, except for numbers one and three. While
supporting recommendation one the Agency noted that, based on information obtained
during the exit conference, HI-DHS should be allowed to recover an equitable portion of
departmental indirect costs. SSA staff noted that recommendation three should be
deleted because the SSA regional office approved a plan from HI-DDS to phase out
payments for missed CE appointments. Unfortunately, we were not provided the
approval before issuing the draft audit report.

OIG RESPONSE
We concur with SSA’s comments. We disagree with HI-DHS’ comments on
recommendation one regarding the numbers of MER encumbrances and its calculation
of a reduced cost disallowance. We found that every MER was encumbered and based
our cost adjustments on the actual numbers of MERs. Nonetheless, we agree that
eliminating all MER encumbrances in allocating departmental indirect costs is not
equitable to the State because of the approved methodology. The determination of a
reasonable allocation of indirect costs to HI-DDS is beyond our audit scope and is a
matter of negotiation with SSA. Regarding recommendation three, the regional office
concurred that HI-DHS took appropriate action to phase out the payment of fees for
missed CE appointments. Based on additional evidence from the regional office, we
deleted the finding and related recommendation from the report.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                       10
                                                                 Other Matters
AUTOMATING THE PAYMENT OF DISABILITY CLAIMS
During our audit, we found that HI-DDS used the Versa computer program to process
disability claims and HI-DHS used FAMIS to process disability payments. For each
claim, HI-DDS entered the claimant, vendor, medical service, cost, and related data into
Versa. HI-DHS also entered the same data into FAMIS and reviewed the supporting
documentation for the claim. Linking Versa and FAMIS could expedite the payment of
disability claims and strengthen the data integrity between the two systems, thereby
reducing the potential for duplicate payments.

Moreover, the workload savings from linking the two programs could result in
potential cost savings to SSA’s programs. We recognize that HI-DDS and HI-DHS
may incur significant costs to further automate the processing of disability payments.
Nevertheless, SSA and HI-DDS employees were in favor of evaluating the feasibility of
linking Versa and FAMIS. We believe this issue warrants further consideration as SSA
continues in its ongoing effort to improve DDS operations in Hawaii.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                        11
                                       Appendices




Audit of Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                                                                              Appendix A

Hawaii Disability Determination Services
Reported And Allowable Costs
                   Table 1 – Administrative Costs for Fiscal Year (FY) 1999

          Category               Reported Costs           Audit Adjustments   Allowable Costs
    Personnel                     $2,605,730                    ($2,222)         $2,603,508
    Medical                           897,883                         0             897,883
    Indirect                          378,141                   (99,880)            278,261
    Nonpersonnel                      662,047                         0             662,047
    Total                          $4,543,801                ($102,102)          $4,441,699

                           Table 2 – Administrative Costs for FY 2000

          Category               Reported Costs           Audit Adjustments   Allowable Costs
    Personnel                     $2,377,898                    ($6,443)         $2,371,455
    Medical                        1,033,427                          0           1,033,427
    Indirect                         445,094                  (125,346)             319,748
    Nonpersonnel                     696,831                          0             696,831
    Total                         $4,553,250                 ($131,789)          $4,421,461

                           Table 3 – Administrative Costs for FY 2001

          Category               Reported Costs           Audit Adjustments   Allowable Costs
    Personnel                     $2,389,026                    ($2,079)         $2,386,947
    Medical                          921,185                          0             921,185
    Indirect                         412,144                   (103,484)            308,660
    Nonpersonnel                     599,313                          0             599,313
    Total                         $4,321,668                 ($105,563)          $4,216,105

                           Table 4 – Administrative Costs for FY 20021

          Category               Reported Costs           Audit Adjustments   Allowable Costs
    Personnel                     $2,398,099                         $0          $2,398,099
    Medical                          952,451                          0             952,451
    Indirect                         367,487                    (77,548)            289,939
    Nonpersonnel                     540,043                          0             540,043
    Total                         $4,258,080                  ($77,548)          $4,180,532

1
    For FY 2002, we limited our review to indirect costs only.


Audit of Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                                                                     Appendix B

Statewide and Departmental Indirect Costs
Each quarter, the Hawaii Disability Determination Services (HI-DDS) receives an
allocation of statewide indirect costs from the Hawaii Department of Accounting and
General Services and Hawaii Department of Budget and Finance. In addition, HI-DDS
receives an allocation of departmental indirect costs from the Hawaii Department of
Human Services (HI-DHS), Fiscal Management Office, Pre-Audit Unit. These costs are
allocated based on the ratio of transactions (that is, encumbrances and expenditures)
for each program divided by the total number of transactions processed through the
Financial Accounting and Management Information System (FAMIS).

Our review disclosed that HI-DHS unnecessarily established encumbrances for the
payment of medical evidence of records (MER), which increased the percentage
of statewide and departmental indirect costs allocated to the Social Security
Administration (SSA). To quantify our findings, we obtained (1) accounting reports
of paid expenditures and outstanding encumbrances from FAMIS for Fiscal Years
(FY) 1999 and 2000, and (2) data extracts of all expenditures and encumbrances
processed through FAMIS for January 2000 through September 2002.

To identify the number of encumbered MER transactions for FYs 1999 through 2002,
we used the following methodology:

•   From October 1998 to September 1999, we used the accounting reports to
    determine the average number of encumbered MER transactions per quarter.
    Based on HI-DHS’ policies and procedures, we concluded that the number of
    paid MER expenditures equaled the number of encumbered MER transactions.

•   From October 1999 to December 1999, we used the accounting reports to
    identify the total number of encumbered MER transactions for FY 2000. In
    addition, we used the data extracts to identify the actual number of encumbered
    MER transactions from January 2000 to September 2000. We compared these
    amounts to determine the number of encumbered MER transactions from
    October 1999 to December 1999.

•   From January 2000 to September 2002, we used the data extracts to determine
    the actual number of encumbered MER transactions per quarter.

For each quarter, we subtracted the number of encumbered MER transactions from
the number of transactions for HI-DDS and the total number of transactions for all
programs. Based on the revised transaction counts, we recalculated the percentage
and amount of indirect costs allocable to SSA’s programs. The following tables provide
a breakdown of the statewide and departmental indirect costs questioned by our audit.



Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                        B-1
                           Table 1 – Statewide Indirect Costs

   Quarter Ended           Claimed Costs          Allowable Costs   Unallowable Costs
 December 1998                 $36,435                 $22,810            $13,625
 March 1999                     39,055                  27,373             11,682
 June 1999                      36,387                  24,341             12,046
 September 1999                 77,680                  56,449             21,231
 December 1999                  71,064                  50,244             20,820
 March 2000                     64,528                  42,032             22,496
 June 2000                      69,042                  49,377             19,665
 September 2000                 82,126                  57,303             24,823
 December 2000                  65,180                  49,204             15,976
 March 2001                     73,582                  52,413             21,169
 June 2001                      64,721                  42,674             22,047
 September 2001                 35,513                  25,681              9,832
 December 2001                  30,923                  21,936              8,987
 March 2002                     35,190                  26,534              8,656
 June 2002                      39,093                  28,010             11,083
 September 2002                 34,854                  25,647              9,207
 Total                       $855,373                 $602,028          $253,345

                         Table 2 – Departmental Indirect Costs

   Quarter Ended           Claimed Costs          Allowable Costs   Unallowable Costs
 December 1998                 $14,333                 $2,880             $11,453
 March 1999                     15,081                  5,722               9,359
 June 1999                      12,234                  2,705               9,529
 September 1999                 17,547                  6,592              10,955
 December 1999                  11,332                   (246)             11,578
 March 2000                     11,745                  3,866               7,879
 June 2000                      12,338                  5,056               7,282
 September 2000                 18,328                  7,525              10,803
 December 2000                  12,817                  4,784               8,033
 March 2001                     13,735                  5,922               7,813
 June 2001                      13,652                  4,749               8,903
 September 2001                 15,131                  5,420               9,711
 December 2001                  15,513                  6,842               8,671
 March 2002                     18,493                  8,847               9,646
 June 2002                      18,462                  8,113              10,349
 September 2002                 20,348                  9,399              10,949
 Total                       $241,089                 $88,176           $152,913




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                     B-2
                                                                 Appendix C

SSA Comments




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                                SOCIAL SECURITY
MEMORANDUM

Date:      July 23, 2003                                         Refer To:   S2D9G4


To:        Assistant Inspector General
           for Audit

From:      Assistant Regional Commissioner
           Management and Operations Support
           San Francisco

Subject:   Audit of Administrative Costs Claimed by the Hawaii Disability Determination Services
           (A-09-03-13012)--REPLY

           Thank you for the opportunity to review the draft report of your audit of the Hawaii
           Disability Determination Services. Per your request, we are providing an attachment
           with specific written comments for each of the nine recommendations contained in the
           draft report.

           If you have any questions regarding our comments, please call me. If staff have any
           questions, they may call Diane Trewin in the Center for Disability at (510) 970-8295.



                                                  /s/
                                                  Ron Sribnik for
                                                  Patrick E. Sheehan

           Attachment




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                           C-1
                                                                              Attachment

             Regional Office Comments on the Hawaii DDS Draft Audit Report


       Recommendation 1: Instruct HI-DHS to refund $406,258 in unallowable
       statewide and departmental indirect costs for FYs 1999 through 2002.

       Comment: We generally support this recommendation but request an
       adjustment in the refund amount based on information shared during the exit
       conference discussion. During the exit conference, representatives of the State
       suggested and OIG representatives confirmed that the departmental indirect cost
       portion of this recommendation would be allowable under an equitable indirect
       cost plan that was not based on transactions. We believe the recommended
       refund amount should only be the amount that would not be chargeable under an
       equitable plan.

       Recommendation 2: Ensure HI-DHS discontinues its practice of establishing
       encumbrances for the payment of MERs.

       Comment: We find this recommendation reasonable.

       Recommendation 3: Work with OD to obtain prior approval for the payment of
       fees for missed CE appointments.

       Comment: Note, OD is now the Office of Disability Determinations (ODD).

       The DDS no longer pays fees for missed CE appointments. The DDS notified
       the Region of a reasonable plan to phase out the payments for missed CE
       appointments. The Region supported this plan. Generally, absent specific
       instructions otherwise, this type of decision would be left to the Region.
       Subsequent to the release of the draft audit report, we provided OIG staff a copy
       of the region’s timely notification to ODD of Hawaii’s plan. (We regret that a copy
       of the notification was not provided before the release of the draft audit report.)
       Since we were notifying ODD of an existing practice that would be phased out,
       as opposed to a request to begin a new process to pay for no-shows, we would
       not expect a response from ODD unless they disagreed with the plan. We
       recommend that this recommendation be removed.

       Recommendation 4: Instruct HI-DHS to refund $10,744 in unallowable personnel
       costs for medical consultants for July 1999 through March 2001.

       Comment: We find this recommendation reasonable.

       Recommendation 5: Ensure HI-DHS improves the methods used to record
       unliquidated obligations for medical costs so that future estimates more
       accurately reflect the amounts needed for valid expenditures.


Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                         C-2
       Comment: We find this recommendation reasonable.

       Recommendation 6: Determine whether expenditures claimed on the Form SSA-
       4513 for FYs 1999 through 2001 were claimed in the proper FY and reclassify
       expenditures as appropriate.

       Comment: We find this recommendation reasonable.

       Recommendation 7: Ensure HI-DDS establishes procedures to require
       employees to establish obligations and report expenditures in the correct FY.

       Comment: We find this recommendation reasonable.

       Recommendation 8: Ensure HI-DDS establishes procedures to require
       employees to lock or log off their workstations before leaving them unattended.

       Comment: We find this recommendation reasonable.

       Recommendation 9: Verify whether HI-DDS implemented an automatic lock to
       safeguard all employee workstations.

       Comment: We agree. As of June 2003, all employee workstations have the SSA
       standard automatic lock installed.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                         C-3
                                                                 Appendix D

HI-DHS Comments




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
Mr. Steven L. Schaeffer
Assistant Inspector General for Audit
6401 Security Boulevard
Room 4-L-1 Operations Building
Baltimore, Maryland 21235

Dear Mr. Schaeffer:

   As requested, enclosed are our comments to your draft report
“Administrative Costs Claimed by the Hawaii Disability Determination
Services” (A-09-03-13012). We appreciate the opportunity to present our
views on the facts and recommendations.

If there are any questions, please call Cynthia Lefever, Disability
Determination Branch Administrator, at (808) 973-2244 or Derek Oshiro,
Chief Accountant at (808) 586-5630.


                                                  Sincerely,



                                                  Lillian B. Koller, Esq.
                                                  Director



Enclosure




                          AN EQUAL OPPORTUNITY AGENCY




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)              D-1
                           RESPONSE AND COMMENTS
     Administrative Costs Claimed by the Hawaii Disability Determination Services
                                  August 12, 2003


INDIRECT COST

    The encumbrance process ensures that financial obligations incurred by a program
will be adequately funded when the payments for these obligations are issued. It is
especially important for programs that generate a high volume of payment transactions
against relatively restrictive and fixed fund balances. Such is the case for the HI-DDS
program. This arrangement has served to be effective in monitoring and managing the
program’s preset quarterly allotments.

    The HI-DDS’ annual appropriation is submitted as a part of the state budget by the
Governor to the state legislature for approval prior to the state fiscal year. The
amount appropriated may at times be less than the federal grant award to HI-DDS. The
annual appropriation is allotted to each quarter of the state fiscal year according to the
program’s expenditure plan. If the quarterly allotments are deemed to be insufficient, a
formal request to increase the HI-DDS’ state appropriation, and in turn their quarterly
allotment, is submitted through the Department of Budget & Finance to the Governor’s
Office for approval. This process normally takes two to three weeks, and consequently
may result in additional delays in issuing client and vendor payments.

    One of the financial objectives of the Program is to ensure that state quarterly
allotments are managed properly so all program obligations are paid on a timely basis.
Although MERs are relatively small payments and constitute approximately 6% of the
total federal grant that HI-DDS spends, such expenditures can cause an allotment deficit if
they are not monitored. Without any available allotment balance, all program payments
(consultative examinations, medical consultants, equipment, etc.) will be suspended. This
will result in late payments and accompanying interest liabilities. By state statute, any
invoice not paid within 30 days will be assessed interest, the rate for the September 2003
quarter being 6.25% per annum. Since federal funds cannot be charged interest on late
payments, this interest charge will have to be paid by the Vocational Rehabilitation &
Services to the Blind Division (VRSBD) state funds.

Recommendation 1

    We have reviewed and analyzed the calculations for the unallowed statewide and
departmental indirect costs. Historically, out of the 4,500 MERs processed per quarter,
about 900 MERs are actually encumbered to reimburse the department’s petty cash fund
for MER payments issued. Based on our recalculation by eliminating 900 MER
encumbrances from each of the affected quarters, the difference between the claimed
amount and the revised amount using the reduced MER encumbrances, would be $55,397
and $30,436 for the statewide and departmental indirect costs, respectively. Attached is
Exhibit A that shows the details of the recalculation.


Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                         D-2
    The Department of Human Services (DHS) uses the state accounting system (FAMIS)
as its departmental system. Under FAMIS, accounting transactions include expenditures,
journal voucher entries, and posting of allotments as well as encumbrances. The use of
encumbrances in the transaction counts to allocate the accounting functions and activities
on the departmental and state levels is considered reasonable and in accordance with the
cost allocation plan approved by the U.S. Department of Health and Human Services-
Division of Cost Allocation. To the best of our knowledge, SSA has not formally
communicated to HI-DDS that MER encumbrances would not be acceptable.

Recommendation 2

       The termination of the encumbrance practice for MERs may result in a
compromised ability to properly manage the allotment balances on a day-to-day basis,
especially toward the end of the fiscal quarter when the balances are tight. However, HI-
DDS does recognize the benefits relative to manual workload and staff time, by reducing
the up-front encumbrance activities. On this basis, we will be exploring the feasibility of
processing MER payments directly without adversely affecting the ability to monitor the
allotment balances.

Recommendation 3

       The DDS verbally requested an exemption to the no-pay policy for missed CE
appointments. The request was directed to SSA SFRO and the DDS received verbal
permission for the following plan.
          • Effective July 2000 the DDS would not pay new vendors for missed CE
               appointments and payments to existing vendors would be decreased from
               50% to 25%.
          • Effective July 2002, with a new RFP and contracts, all payments for missed
               CE’s would cease.
       This plan was put into effect and no payments for missed CE appointments have
been made since July 2002, except for appointments arranged prior to July 2002 (none of
which remain outstanding at this point). So this issue is now moot.

Recommendation 4

        The DDS does not dispute that errors were probably made by DDS personnel in
calculating MC pay. The methodology used at that time to compute MC hours was very
tedious and error prone. It would not be practical to recalculate 23 months worth of time
sheets nor to expect more accurate results than the initial computations.

         While some of the MC’s from that time period are still with the DDS, several have
left the agency and 2 are now deceased; so some of this money would be unrecoverable in
any event. It would not be cost effective to use staff time to do recalculations. As stated in
the OIG report, the DDS has since instituted new procedures that are not error prone, so
this is not an ongoing problem. The DDS requests that this recommendation not be




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                            D-3
implemented. If it is implemented, we will require overtime hours for our staff to perform
the recalculations.

Recommendation 5

        The DDS itself became aware of the problem of un-liquidated obligations before
the arrival of OIG and had already instituted internal monthly reviews of outstanding
obligations, so that they could be de-obligated timely. The DDS and HI-DHS offices had
also worked together to be sure that the de-obligations were completed timely. Currently
de-obligations are done at least once a week. So from the DDS perspective, this issue has
been resolved on an ongoing basis.

        However, there will always be a certain number of de-obligations that cannot take
place until the following fiscal year. Example: In September, a CE is scheduled for
November and the funds are obligated. Then in November the claimant misses the CE and
its rescheduled for December. The claimant again misses the CE and at this point the funds
are de-obligated.

Recommendation 6

        For the small amount of error ($9,944 over a 3-year period) and the amount of time
that has passed (2-5 years), it is impractical to attempt to make a determination of the
proper fiscal year. This would not be an efficient use of staff time and the DDS requests
that this recommendation not be implemented.

Recommendation 7

       As stated earlier in regard to un-liquidated obligations, medical services costs will
often overlap fiscal years and there is no operational way to avoid this.

       However, the DDS has changed internal procedures and administrative personnel
since 2001 and improper reporting of administrative costs is no longer occurring.

Recommendation 8

       DDS employees have now been instructed to lock or log off their workstations
when they leave the office.

Recommendation 9

With the server replacement in 2003, the automatic lock on workstations is now in place.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)                          D-4
                        Statewide Indirect Costs                 EXHIBIT A
                          DHS - Recalculation
                                  Reduec (2)
Qtr Ended          Claimed    Type Q by 900 Difference
                   Amount     Allowable Amt
09/2002                34,854       32,346       2,508
06/2002                39,093       36,828       2,265
03/2002                36,181       33,805       2,376
12/2001                31,811       29,220       2,591
09/2001                35,513       33,090       2,423
06/2001                64,721       60,440       4,281
03/2001                73,582       68,988       4,594
12/2000                65,180       60,075       5,105
09/2000                82,126       77,959       4,167
06/2000                69,042       64,723       4,319
03/2000                64,528       60,076       4,452
12/1999                71,064       66,485       4,579
09/1999                77,680       73,417       4,263
06/1999                36,387       33,971       2,416
03/1999                39,055       36,711       2,344
12/1998                36,435       33,721       2,714
                     857,252       801,855      55,397


                      Departmental Indirect Costs
                         DHS - Recalculation
                                  Reduce (2)
 Qtr Ended         Claimed    Type Q by 900 Difference
                   Amount     Allowable Amt
09/2002                20,349       17,680       2,669
06/2002                18,462       16,592       1,870
03/2002                18,493       16,169       2,324
12/2001                15,513       13,328       2,185
09/2001                15,131       13,036       2,095
06/2001                13,652       12,148       1,504
03/2001                13,735       12,262       1,473
12/2000                12,817       10,486       2,331
09/2000                18,622       17,090       1,532
06/2000                12,338       10,919       1,419
03/2000                11,745       10,409       1,336
12/1999                11,038        8,977       2,061
09/1999                22,482       20,038       2,444
06/1999                12,234       10,570       1,664
03/1999                15,081       13,466       1,615
12/1998                14,333       12,419       1,914

                     246,025        215,589        30,436

SUMMARY:

  Statewide I/C - Difference          55,397
  Departmental I/C - Difference       30,436
                 Total                85,833



Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)               D-5
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Western Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Wilfred P.K. Wong, Auditor

   Brennan Kraje, Statistician, Policy, Planning and Technical Services

   Annette DeRito, Writer-Editor, Policy, Planning and Technical Services


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-03-13012.




Administrative Costs Claimed by the Hawaii DDS (A-09-03-13012)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG) by
providing information resource management; systems security; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA, as well as
conducting investigations of OIG employees, when necessary. Finally, OEO administers OIG’s
public affairs, media, and interagency activities, coordinates responses to Congressional requests
for information, and also communicates OIG’s planned and current activities and their results to
the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
